Supreme Court, US.
FILED

MAR 24 2020

OFFICE OF THE CLERK

     
    

WAIVER

Supreme Court of the United States

 

No. 19-1107
Clinton Sides, et ux. v. Central Kansas Conservancy, Inc.
(Petitioners) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
m Please enter my appearance as Counsel of Record for all respondents,

O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

O Iam a member of the Bar of the Supreme Court of the United States.

2& Lam not presently a member of the Bar of this Court. Should a response be requested,

the response will be filed by a Bar member.
Sint gad 0 Hal

pate: _//pred 023 2020

a
(type or print) Name CASEY fC, LAw/
O Mrs, O Miss

d4Mr. OMs.
rim he. a Reber, 2 cL
Addrese_/ 20 _/ , Ken sdasffye. Cece &
city & state YY) Ef, Vie KS tin L740
Phone 6 20 TAQY¥/=- 2 SoH

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: faterek BR. Hreghes
Adnws cowes Lawtirun, PA.
1632S Ne. Water Gey at Parkway Sure 200

Ly ith.ta, KF 6206

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet f
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

 

 

RECEIVED
APR 1- 2020

SERRE COUR!

 
 

 
    

IK

 
